1a
APPENDIX A
DISTRICT COURT OF APPEAL OF THE
STATE OF FLORIDA FOURTH DISTRICT
Nos. 4D18-1221 & 4D18-1632
L.T. Case No. 43-2013-CA-001321
MAGGY HURCHALLA,
Appellant,
v.
LAKE POINT PHASE I, LLC and
LAKE POINT PHASE II, LLC,
Florida Limited Liability Companies,
Appellees.
June 19, 2019
Consolidated appeal from the Circuit Court for the
Nineteenth Judicial Circuit, Martin County;
William L. Roby, Judge
CONNER, J.
Maggy Hurchalla (“Hurchalla”) appeals the final
judgment entered after a jury found in favor of Lake
Point Phase I, LLC and Lake Point Phase II, LLC (collectively, “Lake Point”), on its claim of tortious interference. Prior to trial, the South Florida Water Management District (“the District”) and Martin County
(“the County”) were co-defendants, but the claims
against them were settled. Hurchalla argues the trial
court erred by: (1) improperly instructing the jury on
her defense of First Amendment privilege to petition

2a
the government; (2) entering the judgment against her
when the evidence was insufficient to defeat her First
Amendment privilege; (3) improperly instructing the
jury on her defense of common law privilege to make
statements to a governmental entity for mutual and
public interest; (4) entering the judgment against her
when the evidence was insufficient to defeat her common law privilege; (5) denying her motion for judgment
notwithstanding the verdict (contending insufficient
evidence of breach, causation, and damages); (6) giving
an adverse inference jury instruction; and (7) ordering
her to pay attorneys’ fees as a sanction. We affirm on
the issues regarding the First Amendment and common law privileges and explain our analysis. We affirm
as to the other issues raised without discussion.
As to the jury instructions regarding the privilege
defenses, we determine there was no reversible error.
As to the evidentiary arguments, we determine that
the jury was presented with sufficient evidence to conclude the privileges were negated by malice on the part
of Hurchalla.
Background
This appeal involves a 2,266-acre tract of land in
Martin County (“the Property”). The previous owners
of the Property planned to develop a subdivision of
twenty-acre “ranchettes,” for which the County issued
a development order (“the Development Order”) for a
large segment of the Property. The Development Order allowed the owners to mine limestone from the
Property. When the real estate market started to decline in 2008, the previous owners looked to sell the
Property. They contacted the District about buying
the Property. The Property was of value to the District because of its unique location at the intersection of

3a
three different water basins and its potential for storing, cleansing, and then conveying water to different
areas. However, the District was not able to acquire
the funding to purchase the Property in a timely manner. Since Lake Point had been a contractor building
on the Property for the previous owners, it “realized
that there was a very economical limestone on the
[P]roperty” that the company could use for its heavy
highway construction business, so it purchased the
Property.
Lake Point approached the District with a concept
for a public-private partnership to construct a stormwater treatment project (“the Project”) on the Property. After the District oversaw an in-depth due diligence investigation, Lake Point and the District entered into an agreement titled “Acquisition and Development Agreement for Public Works Project” (“the
ADA”) in November 2008. The ADA addressed the
Project in two phases, Phase I and Phase II, based on
the fact that a portion of the Property was under the
Development Order. As to the Phase I parcel, mining
would continue under the Development Order. As to
the Phase II parcel, which was not under the Development Order, it was contemplated that Lake Point
would conduct mining to create stormwater treatment
facilities, but as to that parcel, mining permits would be
obtained from both the Florida Department of Environmental Protection (“FDEP”) and the Army Corps of
Engineers (“the Corps”). The Project envisioned that
excavation of limestone would create the stormwater
management lakes that could be used by the District
for water storage and conveyance purposes. The
agreement required Lake Point to donate the Property
to the District in phases over a 20-year period, as Lake
Point mined limestone from the property. Because the

4a
Development Order was an encumbrance on the Property, the ADA provided that Lake Point would have
the Development Order vacated as to the portions of
the Phase I parcel donated to the District.
Since the County was a necessary player in accomplishing the Project, the District and the County entered into an interlocal agreement (“the Interlocal
Agreement”) for the Project in May 2009. The Interlocal Agreement expressly acknowledged the Project’s
numerous “water related benefits.” Mirroring the
ADA, the Interlocal Agreement required that the Development Order (authorizing mining) had to be vacated as to any portion of the Phase I parcel donated to
the District. The County expressly agreed that it
would take no action to otherwise create any encumbrances on the Property. The agreement also provided
that until portions of the Property were donated to the
District, the Development Order would remain in full
force and effect.
The Interlocal Agreement also allowed Lake Point
to mine limestone on the Phase II portion of the Property, if it obtained permits from both the FDEP and
the Corps. Once Lake Point obtained those permits,
additional permission from the County to mine the
Phase II parcel was not required because the Project
qualified as an exempt public stormwater project. The
Interlocal Agreement also provided that Lake Point
would pay the County an annual monetary contribution
based on the amount of limestone mined.
Over the next several years, Lake Point worked to
implement the Project. Lake Point commissioned additional engineering reports to ensure the Project’s success. It applied for and obtained the necessary mining
permits from the FDEP and the Corps. During this

5a
time, the County monitored the Project and never identified any problems with the Project.
Hurchalla served as a Martin County Commissioner from 1974 to 1994. She has received numerous
awards for her long commitment to environmental issues and had served on state and regional environmental boards and committees. When the County entered
into the Interlocal Agreement in 2009, Hurchalla knew
of the Project and expressed a few concerns, but took
no action in protest.
In September 2012, local media published an article
about a plan by Lake Point to convert the Project into
one that would supply water to the City of West Palm
Beach for consumptive use. The article alarmed
Hurchalla. Prompted by the news article, by late 2012
Hurchalla became vehemently opposed to the Project.
This was in the same time frame as the 2012 general
election, which saw a change to the composition of the
Board of the Martin County Commission (“BOCC”)
with the election of Hurchalla’s good friend Anne Scott,
joining another close friend, Sarah Heard on the BOCC.
Hurchalla began expressing her disagreement with the
Project in a series of emails sent to these close friends
on the BOCC using their private email accounts; messages were also sent to the BOCC email address of
Commissioner Ed Fielding. These emails encouraged
the commissioners to copy and paste Hurchalla’s
statements and forward them in emails to the other
county commissioners and county staff. Hurchalla also
began giving explicit instructions in the emails to her
commissioner friends as to how to stop the Project with
various maneuvers.

6a
As found by the jury, the emails resulted in the
County changing course and moving to thwart, or at
the least, significantly delay the Project.
In 2013, Lake Point sued the District and the County, asserting claims for declaratory relief, breach of
contract, and tortious interference. In an amended
complaint, Lake Point also asserted two counts against
Hurchalla, individually; one for tortious interference
seeking injunctive relief, the other for tortious interference seeking damages. Regarding Hurchalla, Lake
Point alleged that there were new members elected to
serve on the BOCC, and that “[l]eading up to and in
conjunction with this change in the BOCC’s composition, Hurchalla started to engage in surreptitious activities targeted to interfere with Lake Point’s interests.”
Lake Point alleged that Hurchalla scheduled and attended meetings, and also had email communications
with various members of the BOCC, having a “plan to
interfere with the” Interlocal Agreement and ADA. It
was also alleged that Hurchalla “began making numerous false and misleading statements verbally and in
writing to the BOCC, [the District] and others, outside
of normal public meetings.” Lake Point specifically
listed in the amended complaint seven statements
Hurchalla made in a January 4, 2013 email sent to all
five county commissioners. Finally, Lake Point alleged
that “[a]s a result of and in direct response to Hurchalla’s efforts and false statements, the County and [the
District] have begun breaching various obligations under the Interlocal Agreement and Development
Agreement with Lake Point[.]”
The District and the County settled with Lake
Point, which resulted in amendments to the ADA and
Interlocal Agreement more favorable to Lake Point,
and the County paid Lake Point $12 million. Lake

7a
Point abandoned its count against Hurchalla for an injunction. The only remaining count at the time of trial
was against Hurchalla for damages, focusing on her alleged tortious interference with the Interlocal Agreement.
The jury returned a verdict for Lake Point, awarding $4.4 million in damages. The trial court denied
Hurchalla’s motion for judgment notwithstanding the
verdict. Hurchalla gave notice of appeal.
Appellate Analysis
Hurchalla argues that the trial court improperly instructed the jury on her First Amendment privilege to
petition her government and her common law privilege
to make statements to a political authority regarding
matters of public concern. Additionally, she argues the
evidence presented to the jury was insufficient to defeat both privileges. We first address the arguments
regarding the jury instructions.
Jury Instructions Regarding the Privilege Defense
On appeal, Hurchalla asserts the trial court erred
in instructing the jury on her defense under the First
Amendment privilege to petition her government and
her defense under the Florida common law to make
statements to a political authority regarding matters of
public concern.
Our review of the trial transcript reveals that most
of defense counsel’s charge conference arguments focused on legal principles regarding the common law
privilege. However, there were times when defense
counsel would infuse arguments about the First
Amendment privilege, thus blurring the distinction between the two privileges. It is clear there were no separate and distinct proposed jury instructions for each

8a
privilege submitted by Hurchalla for the trial court to
consider. Similarly, there is nothing in the record suggesting that Hurchalla attempted to offer two separate
privileges for the jury to consider. Instead, Hurchalla’s
counsel submitted “Defendant’s Proposed Jury Instruction No. 10 First Amendment Privilege,” which actually
contained the elements of the common law privilege,
rather than the First Amendment privilege.
There are important differences between the federal constitutional First Amendment privilege to petition government and the Florida common law privilege
to speak to another about matters of mutual and public
interest. Our supreme court, in Nodar v. Galbreath,
462 So. 2d 803 (Fla. 1984), explained the similarities and
differences.
Both privileges are qualified, meaning they are not
absolute. Id. at 806 (discussing New York Times Co. v.
Sullivan, 376 U.S. 254, 84 S. Ct. 710, 11 L. Ed. 2d 686
(1964), regarding the right of a public official to bring a
defamation action and describing the Florida common
law privilege as “conditional” and “qualified”). Both
privileges can be overcome by a showing of malice. Id.
However, the types of malice necessary to overcome
the privileges are different. Id. To overcome the First
Amendment privilege, actual malice must be shown.
Id. In contrast, express malice must be shown to overcome the Florida common law privilege. Id. The supreme court described the difference in the malice
standards:
“Actual malice[]” ... consists of knowledge of
falsity or reckless disregard of truth or falsity,
and must be shown by clear and convincing evidence. Express malice under the common law
of Florida, necessary to overcome the common

9a
law qualified privilege, is present where the
primary motive for the statement is shown to
have been an intention to injure the plaintiff.
The plaintiff need only show this fact by a preponderance of the evidence, the ordinary
standard of proof in civil cases.
Id. at 806-07 (internal citations omitted). Thus, not only
are the standards of malice different, but so are the
burdens of proof to establish the malice.
The differences between the two privileges are important for understanding the proper interplay between the First Amendment privilege and the common
law privilege with the elements of tortious interference
with contractual relationships. For example, the two
privileges require different types of malice: actual malice or express malice. Hurchalla argued only express
malice for her defense in the trial court. While she affirmatively requested an instruction discussing express
malice below, on appeal, she argues the trial court
failed to instruct on actual malice. Additionally, regarding the interplay of privilege with the elements of
tortious interference and the burden of proof as to privilege, defense counsel briefly argued at one point that it
was Lake Point’s burden to negate Hurchalla’s privileged statements; however, that argument was virtually abandoned or countermanded by defense counsel’s
repeated assertion that the privilege was an affirmative
defense.
Because defense counsel’s submissions and arguments during the charge conference failed to make important distinctions between the two privileges, we determine the trial court’s instructions regarding privileged communication and the privilege defense were

10a
not reversible error.1 See Universal Ins. Co. of N. Am.
v. Warfel, 82 So. 3d 47, 65 (Fla. 2012) (“Fundamental
error is waived where defense counsel requests an erroneous instruction.”); Goodwin v. State, 751 So. 2d 537,
544 (Fla. 1999)(“If the error is ‘invited,’ ... the appellate
court will not consider the error a basis for reversal.”
(footnote omitted)).
Sufficiency of Evidence Concerning the First Amendment Privilege
We address the argument by Hurchalla’s appellate
counsel that “an appellate court has an obligation ‘to
make an independent examination of the whole record’
to ensure that ‘the judgment does not constitute a forbidden intrusion on the field of free expression.’” Bose
Corp. v. Consumers Union of U.S., Inc., 466 U.S. 485,
499, 104 S. Ct. 1949, 1958 80 L. Ed. 2d, 502, (1984) (quoting Sullivan, 376 U.S. at 284-86, 84 S. Ct. at 728-29); see
also Seropian v. Forman, 652 So. 2d 490, 494 (Fla. 4th
DCA 1995). In other words, we address Hurchalla’s
counsel’s assertion that it is our responsibility to determine if there was clear and convincing evidence to support a determination that Hurchalla demonstrated actual malice by interfering with Lake Point’s contract.
As discussed above, actual malice “consists of
knowledge of falsity or reckless disregard of truth or
falsity, and must be shown by clear and convincing evidence.” Nodar, 462 So. 2d at 806. In this case, Hurchalla sent an email to all five county commissioners on
1

Because we determined above that there is no reversible error in the jury instructions due to the fact that separate instructions for each privilege were not requested, we do not address
Hurchalla’s argument on appeal that express malice must be the
sole, rather than merely the primary, motive in a tortious interference case.

11a
January 4, 2013, expressing her concerns about the
Project. We focus on two statements in the email that
Lake Point contends were false (as alleged in the operative amended complaint). After discussing the status
of the project back in 2008, Hurchalla made the following statement:
At that point[,] [in 2008,] the District staff continued to suggest some vague storage value but
changed the emphasis to the STA [stormwater
treatment area] that would be built on site as
the completion of the project in 20 years. A
study was to follow that documented the benefits [of the stormwater treatment area]. That
study has not been provided.
(emphases added). Several sentences later, Hurchalla
wrote in a bullet point: “Neither the storage nor the
treatment benefits have been documented.” (emphasis
added).
These statements are examples of competent substantial evidence that clearly and convincingly proved
that Hurchalla demonstrated actual malice in interfering
with Lake Point’s contracts with the County and the
District, by making statements she either knew were
false or with reckless disregard as to whether they were
false.
Hurchalla’s comments were represented as
statements of fact, as opposed to statements of pure
opinion. Even if we viewed the statements as “mixed
opinions,” the statements would not be privileged under
the First Amendment. See Zambrano v. Devanesan,
484 So. 2d 603, 606-07 (Fla. 4th DCA 1986) (determining
statements were not privileged opinion “where the
speaker or writer neglects to provide the audience with
an adequate factual foundation prior to engaging in the
offending discourse”). The evidence before the jury

12a
showed that Hurchalla admitted that there actually
were documented treatment benefits. At trial, she stated: “As far as the treatment benefits, there is a study
[documenting treatment benefits], and I did review that
study ... [but i]t’s a preliminary study and other studies
would need to be done.” (emphasis added). Similarly,
her expert agreed that 2008 models showed storage and
treatment benefits of the stormwater treatment area.
Therefore, even if Hurchalla thought there should have
been more studies, she admitted that she had reviewed
the study showing treatment benefits, and thus, she was
aware that her statement that there were no documented benefits was false.
It is also significant that the false statements were
emailed to two recently elected commissioners, Commissioners Scott and Haddox, who each admitted at
trial that they had not read the permits or studies conducted on the Project, indicating that they were unfamiliar with the details about the Project (establishing
reckless disregard for the truth). See Zambrano, 484
So. 2d at 606-07. Thus, upon our independent review of
the record, we determine there was sufficient clear and
convincing evidence to refute Hurchalla’s First
Amendment privilege to petition her government as to
those two statements.
Sufficiency of Evidence Concerning the Florida Common Law Privilege
Hurchalla also argues the evidence was insufficient
to prove she made false statements with express malice. We determine that Hurchalla has not shown reversible error.
Case law indicates that there are two ways that
express malice can be proven. Some cases discuss that
express malice is proven when the motive is character-

13a
ized as “out of spite, to do harm, or for some other bad
motive.” See Nodar, 462 So. 2d at 811 (explaining that
“[s]trong, angry, or intemperate words do not alone
show express malice; rather, there must be a showing
that the speaker used his privileged position ‘to gratify
his malevolence’” (quoting Myers v. Hodges, 44 So. 357,
362 (Fla. 1907))); Boehm v. Am. Bankers Ins. Grp., Inc.,
557 So. 2d 91, 97 (Fla. 3d DCA 1990) (applying the description of express malice in Nodar to a tortious interference claim). Other cases contend that “even where
the defendant’s motive is not purely malicious, a tortious interference claim may succeed if improper methods were used,” thus demonstrating the required express malice. KMS Rest. Corp. v. Wendy’s Int’l, Inc.,
361 F.3d 1321, 1327 (11th Cir. 2004); see also Morsani v.
Major League Baseball, 663 So. 2d 653, 657 (Fla. 2d
DCA 1995) (reversing dismissal of tortious interference
complaint, holding that allegations of “the use of
threats, intimidation, and conspiratorial conduct” were
indicative of malice).
We agree with the proposition that in tortious interference cases, when a privilege is asserted for the
interference, the express malice necessary to negate
the privilege can be proven either by direct or circumstantial evidence of malice through malevolent intent to
harm, or by harm accomplished by improper methods.
In this case, we find that there was sufficient evidence
as to both methods. We address the issue of proof of
express malice by improper methods, followed by our
analysis as to malevolent intent.
Express Malice—Improper Methods
In his dissent in GNB, Inc. v. United Danco Batteries, Inc., 627 So. 2d 492 (Fla. 2d DCA 1993), Judge Altenbernd expressed his view that “[i]mproper business

14a
methods seem to fall into three distinct categories: (1)
acts which are already proscribed by statute, (2) acts
which constitute separate independent torts, and (3)
other ill-defined ‘bad’ acts.” Id. at 494 (Altenbernd, J.,
dissenting). Here, the trial court’s instruction to the
jury included Judge Alternbernd’s second category of
improper methods, namely, misrepresentation. One of
the instructions given to the jury regarding tortious
interference was:
You must render your verdict in favor of
Hurchalla on Lake Point’s tortious interference
claim if you find that Hurchalla used proper
methods to attempt to influence Martin County. … However, deliberate misrepresentation of
facts are not considered a proper method.
(emphases added).
Florida Standard Jury Instruction 408.5 applies to
intentional interference with a contract not terminable
at will.2 As Hurchalla noted in her brief, the notes to
instruction 408.5 indicate that for most tortious interference cases there is no “justification” or “privilege”;
“[h]owever, in certain relatively rare factual situations,
interference with a contract not terminable at will may
be justified or privileged,” and in those situations, “instruction 408.5 will have to be modified.” See Fla. Std.
Jury Instr. (Civ.) 408.5 notes on use. The notes also
point to several sources, including the Restatement
(Second) of Torts § 767 (1979), titled “Factors in Determining Whether Interference is Improper.” Section
767 states that “[t]he issue is not simply whether the
actor is justified in causing the harm, but rather
2

The parties do not dispute that the contracts were not terminable at will.

15a
whether he is justified in causing it in the manner in
which he does cause it.” Id. (emphasis added). “Thus
physical violence, fraudulent misrepresentation and
threats of illegal conduct are ordinarily wrongful means
and subject their user to liability even though he is free
to accomplish the same result by more suitable means.”
Id. (emphasis added). We focus on improper means by
fraudulent misrepresentation in the instant case.
“Fraudulent misrepresentations are ... ordinarily a
wrongful means of interference and make an interference improper.” Id. “A representation is fraudulent
when, to the knowledge or belief of its utterer, it is
false in the sense in which it is intended to be understood by its recipient.” Id. “[T]here are four elements
of fraudulent misrepresentation: ‘(1) a false statement
concerning a material fact; (2) the representor’s
knowledge that the representation is false; (3) an intention that the representation induce another to act on it;
and (4) consequent injury by the party acting in reliance on the representation.’” Butler v. Yusem, 44 So.
3d 102, 105 (Fla. 2010) (quoting Johnson v. Davis, 480
So. 2d 625, 627 (Fla. 1985)).
As we analyzed above, there were two statements
in the January 4, 2013 email to all five county commissioners from which the jury could conclude that
Hurchalla intentionally, or at the least, with reckless
disregard, made purportedly factual statements to induce the BOCC not to go forward with its contract with
Lake Point. Using the elements of misrepresentation
described in Butler: (1) Hurchalla made two false
statements concerning a material fact to the BOCC (effectively, the County); (2) Hurchalla knew that the representations were false; (3) Hurchalla intended that the
representations induce the BOCC (the County) to act
on them; and (4) the County was injured when the

16a
BOCC acted upon the representation and was subsequently sued for its actions based on the reliance.
The Restatement also discusses the situation
where an actor “seek[s] to promote not solely an interest of his own but a public interest.” Restatement
(Second) of Torts § 767. In the instant case, Hurchalla
put on evidence and maintained that she is a champion
for environmental causes, and that she did not act with
the purpose of harming Lake Point, but “to promote
the public interest in the environment.” However:
If the actor [Hurchalla] causes a third person
[the County] not to perform a contract or not to
enter into or continue a contractual relation
with the other [Lake Point] in order to protect
the public interest affected by these practices,
relevant questions in determining whether his
[or her] interference is improper are: whether
the practices are actually being used by the
other [Lake Point], whether the actor
[Hurchalla] actually believes that the practices
are prejudicial to the public interest, whether
his [or her] belief is reasonable, whether he [or
she] is acting in good faith for the protection of
the public interest, whether the contractual relation involved is incident or foreign to the continuance of the practices and whether the actor
[Hurchalla] employs wrongful means to accomplish the result.
Id. (emphasis added). According to the evidence, several of the factors clearly weigh in favor of Hurchalla.
However, as we discussed above, there was sufficient
evidence presented for the jury to decide the issue of
express malice based on Hurchalla using wrongful
means to interfere in Lake Point’s contract with the

17a
County by the use of misrepresentations to the BOCC
in her January 4, 2013 email to the commissioners.
Express Malice—Malevolent Intent to Harm
We also conclude that there was sufficient evidence
presented to the jury to prove that Hurchalla demonstrated express malice toward Lake Point through malevolent intent to harm. In addition to her January 4,
2013 email, there were emails she sent to her commissioner friends instructing them in detail on what to do
at board meetings to work towards voiding the Interlocal Agreement, signed by her as “Deep Rockpit,” as
well as references to herself in emails as “Ms. Machiavelli.” That evidence, coupled with evidence of her significant influence with a majority of the commissioners
and her ability over time to have them assert oppositional positions on a project they knew little-to-nothing
about, was sufficient to support an inference of malevolent intent to harm Lake Point.
Conclusion
Having determined that Hurchalla has not demonstrated trial court error regarding the jury instructions
on the defense of privilege, and the evidence was sufficient to allow the jury to find in favor of Lake Point on
its claim of tortious interference by Hurchalla, we affirm the trial court rulings and the judgment entered
against Hurchalla.
Affirmed.
DAMOORGIAN and FORST, JJ., concur.
*

*

*

Not final until disposition of timely filed motion
for rehearing.

19a
APPENDIX B
IN THE DISTRICT COURT OF APPEAL
OF THE STATE OF FLORIDA
CASE NO.: 4D18-1221, 4D18-1632
L.T. No.: 2013-001321-CA, 432013CA001321
MAGGY HURCHALLA,
Appellant/Petitioner(s),
v.
LAKE POINT PHASE I, LLC and
LAKE POINT PHASE II, LLC,
Appellee/Respondent(s).
September 06, 2019
FOURTH DISTRICT
110 South Tamarind Avenue
West Palm Beach, FL 33401
BY ORDER OF THE COURT:
ORDERED that the appellant’s July 15, 2019 corrected motion for rehearing en banc or certification is
denied. Further,
ORDERED that the movants’ July 23, 2019 motion
for leave to file amicus curiae brief is denied.
Served:
cc: Howard K.
Heims
Jack Schramm
Cox

Richard J.
Ovelmen
Richard Grosso
Christina D.

Virginia P. Sherlock
Ethan Loeb
Latasha Scott

20a
Edward Colin
Thompson
Jon P. Tasso
Dan Bishop
Justin Baxenberg
David W Ogden

Dodds
Michael Joseph
Labbee
Justin S. Wales
Jamie S Gorelick

kr
/s/ Lonn Weissblum
LONN WEISSBLUM, Clerk
Fourth District Court of Appeal
[Court seal]

Rachel Ann
Oostendorp
Paul Marcel
Crochet
David Lehn

21a
APPENDIX C
SUPREME COURT OF FLORIDA
CASE NO.: SC19-1729
Lower Tribunal No(s).: 4D18-1221; 4D18-1632;
432013CA001321CAAXMX
MAGGY HURCHALLA,
Appellant(s),
v.
LAKE POINT PHASE I, LLC, ET AL.
Appellee(s).
April 13, 2020
This cause having heretofore been submitted to the
Court on jurisdictional briefs and portions of the record
deemed necessary to reflect jurisdiction under Article
V, Section 3(b), Florida Constitution, and the Court
having determined that it should decline to accept jurisdiction, it is ordered that the petition for review is
denied.
No motion for rehearing will be entertained by the
Court. See Fla. R. App. P. 9.330(d)(2).
CANADY, C.J., and POLSTON, LABARGA, LAWSON, and MUÑIZ, JJ., concur.
A True Copy
Test:
/s/ John A. Tomasino
John A. Tomasino
Clerk, Supreme Court

22a
db
Served:
DAVID M. LEHN
JUSTIN BAXENBERG
JOEL S. PERWIN
RICHARD GROSSO
JACK SCHRAMM COX
DAVID W. OGDEN
HOWARD K. HEIMS
VIRGINA P. SHERLOCK
GARY K. OLDEHOFF
RICHARD J. OVELMEN
RACHEL A. OOSTENDORP
LATASHA C. SCOTT
JAMIE S. GORELICK
ETHAN J. LOEB
JON P. TASSO
HON. WILLIAM LOY ROBY, JUDGE
HON. CAROLYN TIMMANN, CLERK
PAUL M. CROCHET
HON. LONN WEISSBLUM, CLERK

23a
APPENDIX D
IN THE NINETEENTH JUDICIAL CIRCUIT COURT
IN AND FOR MARTIN COUNTY, FLORIDA
Case No.: 2013-001321-CA
LAKE POINT PHASE I, LLC and
LAKE POINT PHASE II, LLC,
Florida limited liability companies,
Plaintiffs,
v.
SOUTH FLORIDA WATER MANAGEMENT DISTRICT,
a public·corporation of the State of Florida,
MARTIN COUNTY, a political subdivision of the
State of Florida, and MAGGY HURCHALLA,
Defendants.
Filed March 7, 2018
[Watermark: “UNOFFICIAL DOCUMENT”]
FINAL JUDGMENT
Pursuant to the verdict rendered in this action on
February 14, 2018,
IT IS ADJUDGED that Plaintiffs, Lake Point
Phase I, LLC and Lake Point Phase II, LLC, 12012
South Shore Boulevard, Unit #107, Wellington, Florida
33414 (collectively, “Lake Point”), recover from Defendant, Maggy Hurchalla, 5775 SE Nassau Terrace,
Stuart, Florida 34997 (“Hurchalla”), the sum of
$4,391,708.00, which shall bear interest at the statutory
rate, for which let execution issue.

24a
IT IS FURTHER ORDERED AND ADJUDGED
that Hurchalla shall complete under oath Florida Rule
of Civil Procedure Form 1.977 (fact information sheet),
including all required attachments, and serve it on the
Lake Point’s attorney within 45 days from the date of
this final judgment, unless the final judgment is satisfied or post-judgment discovery is stayed.
This Court reserves jurisdiction to consider an
award of attorneys’ fees and/or costs, if any is entitled.
DONE and ORDERED in Stuart, Martin County,
Florida this 28 day of February, 2018.
/s/ William L. Roby
William L. Roby
Circuit Court Judge
cc: Counsel of Record
[handwritten: BH via e-service]

25a
APPENDIX E
IN THE NINETEENTH JUDICIAL CIRCUIT COURT
IN AND FOR MARTIN COUNTY, FLORIDA
Case No.: 2013-001321-CA
LAKE POINT PHASE I, LLC and
LAKE POINT PHASE II, LLC,
Plaintiffs,
v.
SOUTH FLORIDA WATER MANAGEMENT DISTRICT,
MARTIN COUNTY, and MAGGY HURCHALLA,
Defendants.
Filed February 14, 2018
JURY VERDICT FORM
We, the jury, return the following verdict:
1. Did Defendant Maggy Hurchalla tortiously interfere with the Interlocal Agreement?
Yes 

No

If your answer to Question No. 1 is No, please sign and
date the Verdict Form. If your answer to Question No.
1 is Yes, please answer Question No. 2.
2. What damages do you award the Lake Point Plaintiffs for Maggy Hurchalla’s tortious interference?
$ 4,391,708.00

26a
Please sign and date the Verdict Form.
SO SAY WE ALL, in Martin County, Florida this
14 day of February, 2018.
/s/ Steven R. Hursh
FOREPERSON

27a
APPENDIX F
From:
Sent:
To:
Subject:
Follow Up Flag:
Flag Status:

Sarah Heard
Friday, January 04, 2013 3:34 PM
‘pockethouse@yahoo.com’
FW: Lake Pt
Follow up
Flagged

fyi
From: Maggy Hurchalla [mailto:mhurchalla@hotmail.com]
Sent: Friday, January 04, 2013 9:48 AM
To: Sarah Heard; efielding@martin.fl.us; Doug Smith;
Anne Scott; John Haddox; Taryn Kryzda
Subject: Lake Pt
Dear Commissioners,
I’ve reviewed the agenda packet in regard to Lake
Point.
The project has a strange history.
It was first noticed when a newspaper story reported
that the SFWMD was planning to buy the site at twice
its appraised value. A firestorm of controversy arose
since there were other important CERP land purchases
in need of funding. There was NO public knowledge of
any plan, concept or idea that required purchase of the
Lake Point property.
It next appeared in May of 2007 as an application for a
Polo Club residential subdivision. They explained that
it wasn’t really a rock mine but they had to remove all
the rock from the site because it might hurt the horses
hooves. They promised to preserve all the wetlands
and provided a Preserve Area Management Plan. At
first they said they had to haul off 600,000 cu yds of

28a
rock. In Dec of 2007 they discovered they had to haul
off 2 million cu yds of rock.
A year and a half later in Nov of 2008 the SFWMD and
the owner entered into an agreement that said it wasn’t
a Polo Club. It was a rock mine that would reduce dirty
discharges from the St. Lucie Canal by diverting water
from the canal and storing it.
The engineer for the project asserted that it had the
same unique geology as the rockpits in Palm Beach
County that were purchased to store water.
On further questioning staff of the water management
district admitted that “unique geology” was not the
reason for the deal. It is plain old porous limestone.
That is why it is valuable for rock mining. A rockpit in
permeable limestone does not store water. If you pump
water out the pit fills from the surrounding aquifer and
the adjacent St. Lucie Canal. If you pump water in, it
leaks rapidly back into the canal. Pumping costs money. If it doesn’t stay stored in the rockpit it doesn’t do
you any good.
At that point the District staff continued to suggest
some vague storage value but changed the emphasis to
the STA that would be built on site at the completion of
the project in 20 years. A study was to follow that documented the benefits. That study has not been provided. There does not appear to be any peer review by the
CERP team to verify benefits from the rockpit.
Rather suddenly, the site became a “Public Works Project”. Ch 14 of the comp plan allows public works projects to avoid the normal review process.
Attached are the criteria for being designated a Public
Works Project. The project does not appear to qualify.
It was not in the County’s Capital Improvement Plan.
It is not in a Primary or Secondary urban service district.

29a
The reason for calling it a Public Works Project appeared to be that the owner no longer wanted to keep
his promise about preserving wetlands. There were
wetlands on top of some valuable limerock.
The new plan for the “Public Works Project” destroys
60 acres of wetlands.
But making money for a rock mine is not the stated
reason for granting exceptions for Public Works Projects.
First of all, it has to qualify, which it doesn’t.
Secondly, the county has to produce an analysis that
shows it is the only practical alternative. That analysis
requires the county to analyze co-locating the facility at
a similar site nearby.
Across the St. Lucie Canal east of the project is the
massive 30,000 Acre Foot above ground reservoir that,
along with a stormwater treatment area, is part of the
approved Indian River Lagoon component of CERP. It
has excess land where additional STA acreage could be
located. That complex is under construction.
The Lake Point project has been touted as “every little
bit helps.” But,
- It won’t be built for 20 years
- Neither the storage nor the treatment benefits have
been documented
- The operating cost for a tiny inefficient facility make
it cost prohibitive
But it’s free!
There is no free lunch.
This project, for reasons I don’t pretend to understand,
has been fast tracked and allowed to violate the rules
based on the supposition that it might help the river.
At best it won’t do anything for 20 years.

30a
At worst, the owner may take all the benefits and walk
away with the property.
The contract has a reverter clause. If the county or the
SFWMD halts mining at ANY time, the property reverts to the owner. That clause appears to make it
practically impossible to enforce any of the contract
conditions on behalf of the public.
The story drags on.
In 2008 the owner and the SFWMD agreed it was a
rockmine and not a residential subdivision. That
seemed logical since the proposed subdivision lots were
being dug up. They entered into a contract that said
that half of the 2000 acres would be a rockpit and the
other half might eventually be an STA.
But in March 2009 the Martin County Commission gave
a three year extension to complete work on the Polo
Club residential subdivision.
In Nov. 2009 they
changed the conditions on the subdivision approval so
that hauling could take place 24 hours a day. Then at
the end of 2011 they extended the life of the subdivision
approval to 2014. Why?
By now everyone had a contract saying it was a rockpit
and not a subdivision.
The project continued to get favorable treatment. The
contract states that a $.05 per cu yd “environmental
fee” will be assessed starting one year after DEP approval. It wasn’t. Someone decided that the contract
really meant to say “after DEP and Corps approval”.
Since they needed the Corps permit to destroy the wetland the collection date was deferred for a year.
Even with the year long delay the county had the option after the Corps permit was issued in Jan., 2012, to
collect on a quarterly basis. Someone chose not to.
None of those fees have been collected yet.

31a
The engineering department gets quarterly reports on
how many trucks left the property. There is no mention of any survey of the excavation to assure that
depth and slope regulations are being followed. There
is no discussion of the fact that mining seems to be taking place immediately adjacent to wetlands. There
seems to be activity to assure that dewatering for excavation will not destroy wetlands during the twenty
years of mining.
The Corps permit suggests that the lakes will be a
maximum of 20ft deep. That is part of the contract
with Martin County. I talked to the Corps. I was told
that the 20ft is “for illustrative purposes only.” The
Corps permit does not limit the lakes to 20ft depths.
The only limit is that excavation should not go below
9ft below sea level in one lake and 7ft below sea level in
the other. Do the math. This would put a 20ft lake at
11ft above sea level. The adjacent canal is a 15ft. The
ground level is at 22ft. The wetland water tables are at
18ft to 21.9ft above sea level.
Finally, in Dec. 2012, the staff actually looked at the
project and inspected the site.
The report is confusing. It does note various failures in
the process. It then concludes:
“No Board action is necessary.”
Based on the history of the project, it would appear
that SOME Board action is necessary. If Everglades
Restoration becomes a game of special favors for special projects while we pretend to restore the river, we
will lose credibility and we will lose the St. Lucie River.
Based on the staff’s report, it’s impossible to say what
action the Board SHOULD take.

32a
For starters the County should determine the size of
the existing excavations in depth, width, and cu.yds.
That should be compared to fees paid and to promised
lake depth limits.
At the very least you should ask staff to document
- why mistakes happened
- how to correct them
- how to keep them from happening again.
Sincerely,
Maggy Hurchalla

